      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                          Washington, D.C. 20201




November 12, 2010

TO:            Thomas R. Frieden, M.D., M.P.H.
               Director
               Centers for Disease Control and Prevention


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of the Centers for Disease Control and Prevention’s Compliance With
               Appropriations Laws and Acquisition Regulations—Contractor B
               (A-02-09-02005)


The attached final report provides the results of our review of the Centers for Disease Control
and Prevention’s (CDC) compliance with appropriations laws and acquisition regulations. This
audit, which we initiated as a result of a congressional request, is one in a series of audits of
CDC’s contracting practices. It focuses on a research and development contract awarded to a
company referred to as “Contractor B.”

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me,
or your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal
Activities, and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. We look forward to receiving your final management decision within
6 months. Please refer to report number A-02-09-02005 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




  REVIEW OF THE CENTERS FOR
    DISEASE CONTROL AND
PREVENTION’S COMPLIANCE WITH
    APPROPRIATIONS LAWS
       AND ACQUISITION
 REGULATIONS—CONTRACTOR B




                      Daniel R. Levinson
                       Inspector General

                       November 2010
                       A-02-09-02005
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

During fiscal years 2000 through 2008, the Centers for Disease Control and Prevention (CDC)
awarded $16.8 billion in contracts to help accomplish its mission. Like other Federal agencies,
CDC is required to follow appropriations laws and the Federal Acquisition Regulation (FAR)
when acquiring services with appropriated funds.

This audit, which we initiated as a result of a congressional request, is one in a series of audits of
CDC’s contracting practices. It focuses on a 10-year research and development contract that CDC
awarded in 2002 to a scientific research company referred to in this report as “Contractor B.”
Under the contract, which was modified 18 times, CDC awarded $205 million to Contractor B to
complete vaccine safety research studies. Contractor B subcontracted for much of this work.

OBJECTIVE

Our objective was to determine whether CDC’s research and development contract awarded to
Contractor B complied with appropriations laws and acquisition regulations with respect to
competition, inherently governmental functions, personal services, subcontracting, additional
performance activities, contract funding, and pricing.

SUMMARY OF FINDING

CDC’s research and development contract awarded to Contractor B complied with
appropriations laws and acquisition regulations with respect to competition, inherently
governmental functions, personal services, subcontracting, additional performance activities, and
contract funding. However, the contract did not fully comply with appropriations laws and
acquisition regulations with respect to pricing.

Specifically, CDC did not perform cost analyses for four contract modifications that exceeded
$650,000 each and that totaled $10.9 million. The failure to perform cost analyses occurred
because CDC did not adhere to its policies and procedures for determining the reasonableness of
contract modifications. By failing to perform cost analyses, CDC violated the FAR. As a result,
CDC did not ensure that it obtained vaccine safety research studies at fair and reasonable prices.

RECOMMENDATION

We recommend that CDC adhere to its procedures for performing cost analyses on contract
modifications exceeding $650,000 each.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

In written comments on our draft report, CDC concurred with the above recommendation.
However, CDC disagreed with the finding in our draft report that $290,000 was obligated in
excess of available funds and with the related recommendations. Under separate cover, CDC



                                                  i
provided documentation showing that certification for the $290,000 in additional funds was
provided to the contracting officer before the contract action. CDC stated that, accordingly, it
did not violate the Antideficiency Act. CDC’s comments are included in their entirety as the
Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing CDC’s comments and documentation, we agree that the $290,000 was properly
certified. We have revised this final report accordingly.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              Contracting Responsibilities .............................................................................. 1
              Federal Laws and Regulations ........................................................................... 1
              Research and Development Contract Awarded to Contractor B ....................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 3
               Objective ............................................................................................................ 3
               Scope .................................................................................................................. 3
               Methodology ...................................................................................................... 3

FINDING AND RECOMMENDATION ............................................................................... 4

          PRICING………………................................................................................................ 4
                Federal Requirements ........................................................................................ 4
                Cost Analyses Not Performed ............................................................................ 4

          RECOMMENDATION ................................................................................................. 5

          CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS ............ 5

          OFFICE OF INSPECTOR GENERAL RESPONSE .................................................... 5

APPENDIX

          CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS




                                                                    iii
                                        INTRODUCTION

BACKGROUND

The mission of the Centers for Disease Control and Prevention (CDC) is to promote health and
quality of life by preventing and controlling disease, injury, and disability. To help accomplish
its mission, CDC contracts for certain services, such as research and development and medical,
construction, professional, administrative, and technical assistance services. During fiscal
years 2000 through 2008, CDC funding for contracts increased from $439 million to $3.9 billion
per year, for a total of $16.8 billion during the 9-year period.

This audit, which we initiated as a result of a congressional request, is one in a series of audits of
CDC’s contracting practices.

Contracting Responsibilities

CDC’s Procurement and Grants Office (PGO) is responsible for the award, administration, and
closeout of all CDC contracts. Within PGO, contracting officers are responsible for ensuring
effective contracting; ensuring compliance with contract terms; ensuring that contractors receive
impartial, fair, and equitable treatment; and determining the adequacy of contractor performance.

CDC’s centers, institutes, and offices (program offices) are the primary initiators of contracts.
Contracting officers delegate certain administrative duties to program office employees referred
to as “project officers.” As the contracting officers’ authorized representatives for administering
contracts and task orders, project officers are responsible for ensuring proper Government
oversight of contractors’ performance. Project officers are not empowered to make any
contractual commitments on the Government’s behalf.

CDC’s Financial Management Office is responsible for processing payments to contractors and
for maintaining records of invoices, payments, and supporting documents. The Office is also
responsible for ensuring that adequate funds are available and allocated for contracts.

Federal Laws and Regulations

Federal agencies are required to follow appropriations laws and the Federal Acquisition
Regulation (FAR) when acquiring supplies and services with appropriated funds. Selected
requirements are summarized below.

Competition

Pursuant to FAR 6.101(a), with certain limited exceptions, contracting officers must provide for
full and open competition in soliciting offers and awarding Government contracts.

Inherently Governmental Functions

FAR 7.503(a) states that “contracts shall not be used for the performance of inherently
governmental functions.” Inherently governmental functions include determining agency policy,


                                                  1
such as the content and application of regulations; determining budget policy, guidance, and
strategy; and directing and controlling Federal employees.

Personal Services

FAR 37.104 prohibits agencies from awarding personal service contracts unless specifically
authorized by statute. The FAR characterizes a personal service contract as one in which an
employer-employee relationship is created between the Government and contractor personnel.
This relationship may be created by the contract terms or by subjecting contractor personnel to
relatively continuous supervision and control by agency employees during contract performance.

Subcontracting

FAR pt. 44 allows contractors to use subcontractors, with certain restrictions, to furnish supplies
or services during contract performance. The contracting officer must ensure that the contract
includes a subcontracting clause and may require the contractor to obtain the Government’s
consent to subcontract if it has been determined that such consent is required to protect the
Government’s interests.

Change Orders for Additional Performance Activities

FAR 43.201 permits contracting officers to modify contracts to require additional performance
activities that are within the general scope of the original contracts.

Contract Funding

FAR 32.702 and FAR 43.105 state that officers and employees of the Government may not
authorize obligations in excess of the funds available or in advance of appropriations unless
otherwise authorized by law. In addition, before executing any contract, the contracting officer
must obtain written assurance from the responsible fiscal authority that adequate funds are
available or must expressly condition the contract upon the availability of funds.

Fair and Reasonable Pricing

FAR 15.402(a) states that contracting officers must “[p]urchase supplies and services from
responsible sources at fair and reasonable prices.” FAR 15.403-4 requires contracting officers to
obtain cost or pricing data for all contract modifications that exceed $650,000, and FAR 15.404
requires contracting officers to perform cost analyses to determine the reasonableness of the
costs proposed under the modifications.

Research and Development Contract Awarded to Contractor B

In 2002, CDC awarded a 10-year research and development contract to a scientific research
company referred to in this report as “Contractor B.” Under the contract, which was modified 18
times, CDC awarded $205 million to Contractor B to complete vaccine safety research studies.
With assistance from various subcontractors, Contractor B was required to provide written
reports to CDC summarizing the results of the research studies. CDC expected to use these
reports to enhance its efforts in the area of vaccine safety.

                                                 2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CDC’s research and development contract awarded to
Contractor B complied with appropriations laws and acquisition regulations with respect to
competition, inherently governmental functions, personal services, subcontracting, additional
performance activities, contract funding, and pricing.

Scope

Our audit covered CDC’s research and development contract with Contractor B for the period
September 20, 2002, through July 8, 2008. We did not review CDC’s overall internal control
structure. We limited our internal control review to obtaining an understanding of CDC’s
policies and procedures for awarding and administering contracts.

We performed our fieldwork at CDC in Atlanta, Georgia, from May through July 2009.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    gained an understanding of CDC’s policies and procedures related to contract award and
        administration;

   •    gained an understanding of the contract administration responsibilities of PGO, the
        Financial Management Office, and program officials;

   •    interviewed CDC officials to gain an understanding of the types of services provided by
        Contractor B and its subcontractors;

   •    reviewed documentation maintained by PGO, the Financial Management Office, and
        program offices related to the contract;

   •    reviewed the competitive procedures used to award the contract;

   •    reviewed contract documentation to determine whether Contractor B or its subcontractors
        performed any inherently governmental functions or personal services;

   •    reviewed the subcontracting plan that Contractor B submitted to CDC;

   •    reviewed documentation to determine whether the additional performance activities of
        Contractor B and its subcontractors were within the general scope of the contract; and

   •    assessed the procedures used to fund and price the contract.

                                                3
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

CDC’s research and development contract awarded to Contractor B complied with
appropriations laws and acquisition regulations with respect to competition, inherently
governmental functions, personal services, subcontracting, additional performance activities, and
contract funding. However, the contract did not fully comply with appropriations laws and
acquisition regulations with respect to pricing. Specifically, contrary to the FAR, CDC did not
perform cost analyses for four contract modifications that exceeded $650,000 each and that
totaled $10.9 million. The failure to perform cost analyses occurred because CDC did not adhere
to its policies and procedures for determining the reasonableness of contract modifications. As a
result, CDC did not ensure that it obtained vaccine safety research studies at fair and reasonable
prices.

PRICING

Federal Requirements

Pursuant to FAR 15.402, the contracting officer must purchase supplies and services from
responsible sources at fair and reasonable prices. FAR 15.403-4 requires the contracting officer
to obtain cost or pricing data for each contract modification that exceeds $650,000, and
FAR 15.404 requires the contracting officer to perform a cost analysis to determine the
reasonableness of the costs proposed under the modification.

Cost Analyses Not Performed

CDC made five modifications to the research and development contract awarded to Contractor B
that exceeded $650,000 each. These modifications increased the total contract award by
$12.1 million. Contractor B submitted all required cost and pricing data to CDC. However,
CDC did not perform the required cost analyses for four modifications totaling $10.9 million.

According to CDC’s pricing procedures, the contracting officer was required to obtain contractor
cost or pricing data for proposed contract modifications that exceeded $650,000 each and to
perform a cost analysis. The extent of the cost analysis depended on the dollar amount and
technical complexity of the modification. PGO officials acknowledged that the contracting
officers responsible for the four contract modifications failed to perform cost analyses to
determine the reasonableness of the $10.9 million in proposed costs.

By failing to perform cost analyses of proposed contract modifications, CDC violated the FAR.
As a result, CDC did not ensure that it obtained information related to vaccine safety at fair and
reasonable prices.



                                                 4
RECOMMENDATION

We recommend that CDC adhere to its procedures for performing cost analyses on contract
modifications exceeding $650,000 each.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

In written comments on our draft report, CDC concurred with the above recommendation.
However, CDC disagreed with the finding in our draft report that $290,000 was obligated in
excess of available funds and with the related recommendations. Under separate cover, CDC
provided documentation showing that certification for the $290,000 in additional funds was
provided to the contracting officer before the contract action. CDC stated that, accordingly, it
did not violate the Antideficiency Act. CDC’s comments are included in their entirety as the
Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing CDC’s comments and documentation, we agree that the $290,000 was properly
certified. We have revised this final report accordingly.




                                                 5
APPENDIX
                                                                                                                Page 1 0[2

APPENDIX: CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS 





  .4-     DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                       Public Health Service


                                                                                       Cenlers for Disease Control
                                                                                         and Prevention (CDC)
                                                                                       Atlanta GA 30333



                                                                                               AUG 31 2010



        TO: 	       Daniel R. Levinson
                    Inspector General
                    Department of Health and Human Services


        FROM: 	     Director, Centers for Disease Control and Prevention
                    Administrator, Agency for Toxic Substances and Disease Registry

        SUBJECT: Draft Report (A-02-09-02005) - Review of CDC' s Compliance with
                 Appropriations Laws and Acquisition Regulations - Contractor B


        In the Draft Report (A-02-09-02005), the Office of the Inspector General (OIG) made three
        recommendations to the Centers for Disease Control and Prevention (CDC). CDC's responses
        are expl icated below.

            I. 	 Recommendation: Adhere to its procedures for performing cost analyses on contract
                 modifications exceeding $ 650,000 each.
                Response: CDC concurs witil this finding. The documentation confirming that cost
                analyses were performed was not in the ofncial contract file and therefore we were
                unable to substantiate that they were completed.
           2. 	 Recommendation : Determine whether the $ 290,000 obligated in excess of available 

                funds violated the Antideficiency Act and, if so. report the violation as required. 

                Response: CDC does not agree with the facts or with the reconmlendations related to the
                section of the draft report titled "Contract Modification Issued in Excess of Available
                Funds."
           The finding states that CDC improperly awarded a contract modification in excess of
           available funds. Our review of the approval actions for contract #200-2002-00732
           shows initial funds certifications for $800,000 and $250,000, certified on July 15 and August
           31.2005 , respectively. The procurement system also shows that an additional funds
           certification was provided for $290.000 on August 31 , 2005. TIlis additional budget
           authority was made available to support the award of Modification #12 on contract #200­
           2002-00732, which was not awarded until September 13,2005. 13 days later. Accordingly,
           there was not a violation of the Antideficiency Act as certifications of funds availability were
                                                                                                    Page 2 0[2




Page 2 - Daniel R. Levinson, Inspector General


   provided to the contracting office prior to the award of the contract action. Accordingly,
   CDC does not agree with either the finding or the reconunendations related to contract
   funding.
   3. 	 Recommendation : Develop and implement policies and procedures to address 

        compliance with federal laws and regulations on obligating and expending funds. 

      Response: CDC does not concur with this recommendation. This recommendation was
      directed at correcting the condition noted in Reconunendation #2 above. Since CDC
      does not agree that the noted condition occurred, we do not agrec that addi tional policies
      and procedures are needed. CDC has internal controls in place to ensure that adequate
      fundi ng is made available prior to the award of procurement actions. The Integrated
      Contract Expe rt (ICE) system wi ll not allow a contract obligation in excess of the
      commitment (funds certification) amount, outside of a set tolerance level of 10% or
      $ 10,000, whichever is less. In addition, tl,e commitment accounting processes within the
      Unified Financial Management System CUFMS) have funds control processes that
      prevent the posting of transactions in excess of available funds, avoiding an
      Antideficiency Act violation. Accordingly. we do not believe additional policies or
      procedUIes are required in this area.

Please have your staff direct any questions or comments to Mr. Michael Tropauer, CDC's OIG
Liaison, by telephone at (404) 639-7009, or bye-mail at iggao@cdc.gov. I appreciate you r
review of this important matter.


                                         ~~ Thomas R. Frieden, M.D., M.P.H.
